Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 1 of 12
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA

v.

ANTONIO DE JESUS VALDEZ ROJAS

§
§
§
§
§
§
§

March 18, 2019
David J. Bradley, Clerk

CRIMINAL NO. H-18-700

MEMORANDUM AND OPINION
Antonio De Jesus Valdez Rojas has moved to dismiss the indictment charging him with
violating 8 U.S.C. § 1326 by illegal reentry after a prior deportation. He argues that the indictment
is based on a 2012 removal order from an Immigration Court that lacked subject-matter jurisdiction.
(Docket Entry No. 12). Rojas was removed based on that order, but was later found and charged
under 8 U.S.C. § 1326 with illegal reentry. Rojas argues that because the Immigration Court ordered
him removed without jurisdiction in 2012, the removal was invalid. (Id. at 1). Alternatively, he
argues that the original removal order violated his due process rights and 8 U.S.C. § 1326(d), and
that the government cannot prove illegal reentry without an original valid removal. (Id. at 2).
Rojas is one of many defendants making these arguments following the Supreme Court’s
decision in Pereira v. Sessions, 138 S. Ct. 2105 (2018), based on the Notices to Appear used to set
their hearings on removal. The issue is a Notice to Appear that does not state the date and time of
the hearing. Three circuit courts have addressed the issue and found no jurisdictional defect or due
process violation when such a Notice to Appear leads to removal. See Karingithi v. Whitaker, 913
F.3d 1158 (9th Cir. 2019); Hernandez-Perez v. Whitaker, 911 F.3d 305 (6th Cir. 2018); Santos-

85

Appendix P
19-20527.78

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 2 of 12

Santos v. Barr, No. 18-3515, 2019 WL 961560 (6th Cir. Feb. 28, 2019); Leonard v. Whitaker, 746
F. App’x 269 (4th Cir. 2018) (per curiam). District courts have reached conflicting results.1
I.

Procedural History
Rojas is charged with illegal reentry into the United States, in violation of 8 U.S.C. § 1326(a)

and (b)(1). (See Docket Entry No. 1). The government alleges that Rojas illegally entered the
United States sometime in 2003 or 2004, which he admitted after his arrest on December 25, 2011
in Conroe, Texas. (Id. at 5). He was released from the Montgomery County jail on January 3, 2012,
into the custody of U.S. Immigration and Customs Enforcement. (Id.). The government began
removal proceedings against him through the issuance of a Notice to Appear on January 3, 2012.

1

Some district courts have dismissed the indictment without a § 1326(d) analysis based on a
conclusion that a statutorily deficient Notice to Appear does not vest an immigration judge with jurisdiction.
See e.g., United States v. Santiago Tzul, No. 4:18-CR-521-KPE, 2018 WL 6613348 (S.D. Tex. Dec. 4, 2018),
notice of appeal filed, 18-20802 (Dec. 6, 2018); United States v. Alfredo-Valladares, No. 1:17-CR-156-SS,
2018 WL 6629653 (W.D. Tex. Oct. 30, 2018), notice of appeal filed, 18-50953 (Nov. 1, 2018); United States
v. Pedroza-Rocha, No. 3:18-CR-1286-DB, 2018 WL 6629649 (W.D. Tex. Sept. 21, 2018), notice of appeal
filed, 18-50828 (Oct. 2, 2018); United States v. Virgen-Ponce, 320 F. Supp. 3d 1164 (E.D. Wash. 2018).
Some district courts have concluded that although a statutorily deficient Notice to Appear does not vest an
immigration judge with jurisdiction, the defendants must nonetheless satisfy the requirements of § 1326(d).
See e.g., United States v. Rangel-Rodriguez, No. 18-CR-581, 2019 WL 556725 (N.D. Ill. Feb. 12, 2019)
(“[E]ven assuming that the 2010 was defective, [the defendant] must satisfy the requirements of section
1326(d) to collaterally attack the underlying removal order.”); United States v. Francisco Hernandez-Lopez,
No. 5:18-CR-625(1)-DAE, 2018 WL 6313292 (W.D. Tex. Dec. 3, 2018) (assuming jurisdiction without
deciding and holding that the defendant was not entitled to relief under § 1326(d)); United States v. Gerardo
Sandoval-Cordero, No. 3:18-CR-2370-KC, 342 F. Supp. 3d 722, 2018 WL 6253251 (W.D. Tex. Nov. 29,
2018) (defendant did not satisfy § 1326(d)); United States v. Margarito Zapata-Cortinas, No.
5:18-CR-343-OLG, 2018 WL 6061076 (W.D. Tex. Nov. 20, 2018) (same); United States v. Lopez-Urgel, No.
1.18-CR-310-RP, 2018 WL 5984845 (W.D. Tex. Nov. 14, 2018), notice of appeal filed, 18-50970 (Nov. 15,
2018) (defendant satisfied § 1326(d)). Other district courts have concluded that a statutorily deficient Notice
to Appear does not affect an Immigration Court’s jurisdiction and that a defendant must satisfy § 1326(d).
See e.g., United States v. Hernandez-Aguilar, No. 5:18-CR-137-FL-1, 2019 WL 456172 (E.D.N.C. Feb. 5,
2019) (defendant did not satisfy § 1326(d)); United States v. Torres-Castelan, No. 1:18-CR-354-LY, 2019
WL 361684 (W.D. Tex. Jan. 29, 2019); United States v. Saravia-Chavez, No. 3:18-CR-16-NKM, 2018 WL
5974302 (W.D. Va. Nov. 14, 2018) (defendant did not satisfy § 1326(d)); United States v. Ramos-Delcid, No.
3.18-CR-20-NKM, 2018 WL 5833081 (W.D. Va. Nov. 7, 2018), notice of appeal filed, 18-4859 (Nov. 28,
2018) (defendant who was removed in abstentia satisfied § 1326(d)).

2
86
19-20527.79

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 3 of 12

(Id. at 3). The Notice did not specify when the court would hold his hearing. (See id. (stating that
Rojas was to appear “on a date to be set” and “at a time to be set”)). On January 19, 2012, the
Immigration Judge ordered Rojas deported, and Rojas was removed on January 20, 2012. (See id.
at 9). Rojas’s 2012 removal was reinstated twice. (See id. at 12–17). He reentered the United States
again after the 2012 deportation and was found in Conroe, Texas, on February 12, 2018. (Id. at
18–20).
II.

Rojas’s Challenge to Subject-Matter Jurisdiction
Rojas argues that the Immigration Court lacked subject-matter jurisdiction to issue the 2009

removal order, making the order invalid. Without a valid removal order, he argues, the government
cannot prove a necessary element of its reentry charge against him. (Docket Entry No. 12 at 3).
Rojas argues that because the 2012 Notice to Appear did not state a date or time for his removal
hearing, it was not a valid charging document under federal law. (Id.).
Under 8 U.S.C. § 1229a, Immigration Judges have the authority to “conduct proceedings for
deciding the inadmissibility or deportability of an alien.” 8 U.S.C. § 1229a(a)(1). These
proceedings are “the sole and exclusive” means of “determining whether an alien may be . . .
removed from the United States.” § 1229a(a)(3). Immigration Courts have limited jurisdiction.
“Jurisdiction vests, and proceedings before an Immigration Judge commence, when a charging
document is filed with the Immigration Court.” 8 C.F.R. § 1003.14(a). Charging documents for
proceedings after April 1, 1997, are to “include a Notice to Appear, a Notice of Referral to
Immigration Judge, and a Notice of Intention to Rescind and Request for Hearing by Alien.” 8
C.F.R. § 1003.13.

3
87
19-20527.80

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 4 of 12

Rojas argues that a valid Notice to Appear is a prerequisite to the commencement of a
removal proceeding, making the lack of a valid Notice to Appear a bar to an Immigration Court’s
legally issuing a removal order. When an Immigration Court exceeds its delegated power, orders
it issues are void. (Docket Entry No. 12 at 6). Rojas argues that the Notice to Appear issued on in
2012, was deficient because it it “contained no information regarding the time and date of his
hearing,” making it an invalid Notice to Appear, depriving the Immigration Court of jurisdiction,
and barring his removal proceedings from “commencing” under 8 C.F.R. § 1003.14(a). (Id. at 6).
These arguments are largely based on Pereira v. Sessions, 138 S. Ct. 2105 (2018), in which
the Supreme Court held that a valid Notice to Appear under 8 U.S.C. § 1229(a) must include the
time and place of a hearing for the “stop-time rule” to operate. Id. at 2118 (“[T]he statute makes
clear that Congress fully intended to attach substantive significance to the requirement that
noncitizens be given notice of at least the time and place of their removal proceedings. A document
that fails to include such information is not a ‘notice to appear under section 1229(a)’ and thus does
not trigger the stop-time rule.”). The stop-time rule applies in a context different from the present
case. Under § 1229b(b)(1)(A), a nonpermanent resident may seek cancellation of removal after 10
years of physical presence in the United States. Once a valid Notice to Appear is served on a
nonpermanent resident, that period ends, and further presence in this country does not extend the
nopermanent resident’s time to seek cancellation of removal. § 1229b(d)(1)(A).
Pereira involved a nonpermanent resident who was served a § 1229(a) Notice that did not
include the time and date of the hearing. When he later sought to cancel his removal under § 1229b,
his request was denied because he had been served with the § 1229(a) notice. Id. at 2112. The
Supreme Court held that the denial was improper because the Notice did not include the “time and

4
88
19-20527.81

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 5 of 12

place at which the [removal] proceedings will be held,” § 1299(a)(1)(G)(I), and did not trigger the
stop-time rule. The Court explained that “neighboring statutory provision[s]” suggested that the
Notice to Appear must include the time and location of the removal proceedings to trigger the stoptime rule. The Court noted that the second paragraph of § 1229 states that “in the case of any change
or postponement in the time and place of [removal] proceedings,” the government must give the
noncitizen “written notice” on the new time or location of the hearing,” which the Court took to
“presume[] that the Government has already served a ‘notice to appear under section 1229(a)’ that
specified a time and place.” Pereira, 138 S. Ct. at 2114. The Court also noted that “Section
1229(b)(1) gives a noncitizen ‘the opportunity to secure counsel before the first [removal] hearing
date’ by mandating that such ‘hearing date shall not be scheduled earlier than 10 days after the
service of the notice to appear.’” Id. Without the date and location, a “putative notice to appear .
. . is not a ‘notice to appear under section 1229(a)(a).’” Id. at 2113–14 (quoting 8 U.S.C. §
1229b(d)(1)(A)).
The government argues that the language in 8 C.F.R. § 1003.14 about when “jurisdiction
vests” does not change the statutory jurisdictional requirements for Immigration Courts, but instead
“create[s] a nonjurisdictional procedural rule.” (Docket Entry No. 13 at 5). The government argues
that a deficient Notice to Appear may impact the merits of a case, but it does not determine
subject-matter jurisdiction, pointing to Supreme Court cases holding, in non-immigration contexts,
“that defects in a charging document do not deprive a court of subject[-]matter jurisdiction.” (Id.
(citing United States v. Cotton, 535 U.S. 625, 630-31 (2002); United States v. Williams, 341 U.S.
58, 66 (1951); Lamar v. United States, 240 U.S. 60, 64–65 (1916))).

5
89
19-20527.82

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 6 of 12

The government also challenges Rojas’s reading of Pereira. According to the government,
the Court’s narrow holding in Pereira did not alter the longstanding rule that a charging document
does not determine jurisdiction. (Id. at 6). The government argues that the issue central to Pereira
was how to read the stop-time rule, 8 U.S.C. § 1229b(d)(1)(A), in conjunction with § 1229(a), which
establishes the requirements for Notices to Appear. (Id. at 7). “The Court’s decision turned on the
statute’s explicit reference to the [Immigration and Nationality Act]’s definition of what constitutes
a ‘Notice to Appear,” and did not discuss the effect of the [Immigration and Nationality Act]-defined
Notice might have in other contexts.” (Id.).
Rojas is correct that § 1229(a) requires a Notice to Appear to specify the time and place of
the removal proceeding. As some district courts have recognized, “[t]his reading is strengthened,
yet not controlled in the Section 1326 context, by the Court’s holding in Pereira” because § 1229(a)
is unambiguous and does not give the Immigration Court discretion to decided whether to include
the hearing’s time and place in the Notice to Appear. United States v. Chavez-Flores, No.
EP-18-CR-03229-FM, 2019 WL 453616, at *3 (W.D. Tex. Feb. 4, 2019). This leaves the question
of whether a Notice lacking this information means that the Immigration Court lacks subject-matter
jurisdiction to issue a removal order.
The government argues that 8 C.F.R. § 1003.14 “appear[s] to create a non-jurisdictional
procedural rule, not a limit on the Immigration Court’s power to conduct removal proceedings.”
(Docket Entry No. 13 at 5). The Fourth, Sixth, and Ninth Circuits have all recently held that Pereira
does not apply to cases in which, as here, a defendant challenges the Immigration Court’s
subject-matter jurisdiction over his removal proceeding on the ground that the Notice to Appear did
not state the hearing date and time. See Karingithi, 913 F.3d at 1161 (“In short, Pereira simply has

6
90
19-20527.83

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 7 of 12

no application here. The Court never references 8 C.F.R. §§ 1003.13, 1003.14, or 1003.15, nor does
the word ‘jurisdiction’ appear in the majority opinion.”); Hernandez-Perez, 911 F.3d at 310–15
(“We therefore conclude that jurisdiction vests with the immigration court where, as here, the
mandatory information about the time of the hearing, see 8 U.S.C. § 1229(a), is provided in a Notice
of Hearing issued after the NTA,” id. at 314–15); Leonard, 746 F. App’x at 269.
A number of district courts have rejected arguments similar to those Rojas presents. See,
e.g., United States v. Torres-Castelan, No. 1:18-CR-354-LY, 2019 WL 361684, at *5 (W.D. Tex.
Jan. 29, 2019) (because § 1229 does not reference jurisdiction, “notice to appear is not of
jurisdictional consequence”). While a number of district courts had reached a different result, the
circuit court decisions have relied primarily on the Board of Immigration Appeals’s recent
precedential opinion that rejected an argument nearly identical to the one Rojas makes. In Matter
of German Bermudez-Cota, 27 I. & N. Dec. 441 (B.I.A. Aug. 31, 2018), the Board rejected the
argument that Pereria applied to determine an Immigration Court’s jurisdiction when “the
respondent is not seeking cancellation of removal, and the stop-time rule is not at issue.” Id. at 443.
The Board explained that “a notice to appear that does not specify the time and place of an alien’s
initial removal hearing vests an Immigration Judge with jurisdiction over the removal proceedings
. . . so long as a notice of hearing specifying this information is later sent to the alien.” Id. at 447.
The Ninth and Sixth Circuits have emphasized that because an agency’s interpretation of its own
regulations is due “substantial deference” and is “controlling unless plainly erroneous or inconsistent
with the regulation,” the Board’s decision in Bermudez-Cota guides the interpretation of 8 C.F.R.
§ 1003.14. See Auer v. Robbins, 519 U.S. 452, 462 (1997); see Karingithi, 913 F.3d at 1161;
Hernandez-Perez, 911 F.3d at 312.

7
91
19-20527.84

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 8 of 12

Section 1229(a)(1) does not “explain when or how jurisdiction vests with the immigration
judge—or, more specifically, denote which of the several requirements for [Notices to Appear] listed
in § 1229(a)(1) are jurisdictional.” Hernandez-Perez, 911 F.3d at 313. The regulations state that
“[j]urisdiction vests, and proceedings before an Immigration Judge commence, when a charging
document is filed with the Immigration Court,” but the language listing the information necessary
in a Notice to Appear does not require the time and date of the hearing be included. 8 C.F.R.
§§ 1003.14(a), 1003.15. These regulations do not refer to § 1229(a), in contrast to Pereira, in which
the stop-time rule at issue in § 1229(b)(1)(A) cross-referenced § 1229(a). Pereira, 138 S. Ct. at
2114.
Because the statute and regulations are ambiguous, the court defers to the agency’s
interpretation. Pereira does not show that the Board’s interpretation is plainly erroneous. As the
Sixth Circuit noted, “Pereira’s emphatically ‘narrow framing’ counsels in favor of distinguishing
between” deficient Notices to Appear in the stop-time context and those related to questions of an
Immigration Court’s subject-matter jurisdiction. Hernandez-Perez, 911 F.3d at 314. The Fifth
Circuit has also suggested that Pereira should be read narrowly, explaining in a footnote of its
opinion upholding the Board of Immigration Appeals’s decision to dismiss a petitioner’s appeal of
his motion to reopen removal proceedings that Pereira’s “narrow question was whether a NTA that
does not specify the time or place of removal hearing triggers the ‘stop-time rule’ for purposes of
a cancellation of removal.” Mauricio-Benitez v. Sessions, 908 F.3d 144, 148 n.1 (5th Cir. 2018).
The more recent district court decisions on the issue are also in the direction of rejecting
Pereira-based challenges similar to Rojas’s. See, e.g., United States v. Gaeta-Galvez, No. 18-CR134-JPS-JPS, 2019 WL 989766, at *6 (E.D. Wis. Mar. 1, 2019) (denying motion to dismiss

8
92
19-20527.85

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 9 of 12

indictment based on the Notice to Appear’s failure to include the hearing date and time); United
States v. Ramirez-Cruz, No. 2:18-CR-206-FtM-38MRM, 2019 WL 952313, at *2 (M.D. Fla. Feb.
27, 2019) (same); United States v. Gonzalez-Ferretiz, No. 3:18-CR-117, 2019 WL 943388, at *6
(E.D. Va. Feb. 26, 2019) (same); United States v. Calderon-Avalos, No. EP-18-CR-3156-PRM, 2019
WL 919210, at *18 (W.D. Tex. Feb. 25, 2019) (same); see also Lucas v. Nielson, No. 18-CV-07763HSG, 2019 WL 88402, at *4 (N.D. Cal. Feb. 22, 2019) (denying for motion for preliminary
injunction and petition for writ of habeas corpus in part because the petitioner’s original argument
was precluded by Ninth Circuit’s conclusion a Notice to Appear’s failure to include the date and
time does not deprive an Immigration Court of jurisdiction).
The law and the record fail to support the motion to dismiss.
III.

Rojas’s Related Due-Process Challenges
In the alternative, Rojas argues that the court should dismiss the indictment “[b]ecause the

[immigration court] lacked jurisdiction to enter a removal order,” which made “the prior removal
proceedings . . . fundamentally unfair,” in violation of Rojas’s due-process rights. (Docket Entry
No. 12 at 10). Because, Rojas argues, “the ostensible charging document filed in [his] removal
proceedings” was not a valid NTA under § 1229(a)(1)(G) and Pereira, the Immigration Court’s
“jurisdiction did not vest and removal proceedings did not commence under 8 C.F.R. § 1003.14(a).”
(Id. at 11). Rojas contends that “[e]xhaustion of administrative remedies is not required where the
remedies are inadequate, inefficacious, or futile . . . or where the administrative proceedings
themselves are void.” (Id. at 12 (quoting United Farm Workers of Am., AFL-CIO v. Ariz. Agr. Empl.
Relations Bd., 669 F.2d 1249, 1253 (9th Cir. 1982)). He points to district courts holding that “the
defendant ‘need not show that he exhausted administrative remedies because th e immigration court

9
93
19-20527.86

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 10 of 12

proceedings were void,’” (id. (quoting Virgen-Ponce, 320 F. Supp. 3d 1164, 1166 (W.D. Tex. July
26, 2018))), and arguing that he suffered actual prejudice because he “was ordered removed when
the court had no authority to issue such an order.” (Id. at 13).
The government argues that Rojas’s due-process argument is an invalid collateral attack on
his prior removal order under 8 U.S.C. § 1326(d), which states:
In a criminal proceeding under this section, an alien may not challenge the validity
of the deportation order described in section (a)(1) or subsection (b) unless the alien
demonstrates that:
(1) the alien exhausted any administrative remedies that may have been available to
seek relief against the order;
(2) the deportation proceeding at which the order was issued improperly deprived the
alien of the opportunity for judicial review; and
(3) the entry of the order was fundamentally unfair.
8 U.S.C. § 1326(d).
The government argues that Rojas’s failure to exhaust his administrative remedies is not
excused or inapplicable in this context, characterizing the case Rojas cites as “an outlier among the
district court decisions addressing similar motions to dismiss, [that] was erroneously decided.”
(Docket Entry No. 13 at 14). The government urges this court to follow other district courts denying
similar defense motions to dismiss indictments because the defendants did not challenge the removal
order or appeal from it at the time of the removal. (Id. at 15 (citing Lira-Ramirez, 2018 5013523,
at *5; Munoz-Alvarado, 2018 WL 4762134, at *1)). The government argues that exempting Rojas
from the exhaustion requirement “because the immigration court proceeding was void [would]
collapse[] the first and third prongs of § 1326(d).” (Id. at 16).

10
94
19-20527.87

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 11 of 12

The government also argues that Rojas has and cannot show that the 2012 removal
proceedings were unfair or otherwise violated due process. (Id. at 17). Rojas received and signed
the Notice to Appear and “had the opportunity to appeal the removal order that resulted from that
hearing,” although there is no indication that he tried to appeal. (Id.). The government contends that
Rojas’s actions waived any administrative remedies. (Id.).
Finally, the government argues that the 2012 removal proceeding was fundamentally fair
because there was no actual prejudice to Rojas. (Id.).

Rojas cannot show, the government

contends, that a Notice to Appear with the date and time would have changed the outcome of the
2012 removal hearing, or would have otherwise prejudiced Rojas, emphasizing that he “applied for
no relief and waived appeal.” (Id.).
The primary basis for Rojas’s argument that the Immigration Court’s removal order violated
his due process rights is that it lacked jurisdiction to issue that order. The lack of date or time in the
Notice to Appear did not deprive the Immigration Court of subject-matter jurisdiction. Rojas’s
related arguments that his due process rights were violated, or that fundamental unfairness
prejudiced him, fail.
VI.

Conclusion
The Fifth Circuit may soon squarely address the argument that the failure to include the date

and time in a Notice to Appear deprives an Immigration Court of subject-matter jurisdiction. But
based on the Supreme Court’s decision in Pereira, the statutory and regulatory language, recent
circuit court decisions, and the record of Rojas’s proceedings, the court follows the three circuit
courts that have already directly decided the issue and denies the motion to dismiss the indictment.
(Docket Entry No. 12).

11
95
19-20527.88

Case 4:18-cr-00700 Document 17 Filed on 03/18/19 in TXSD Page 12 of 12

SIGNED on March 18, 2019, at Houston, Texas.

______________________________________
Lee H. Rosenthal
Chief United States District Judge

12
96
19-20527.89

